No. A-_________

In the Supreme Court of the United States
__________
MELINDA MITCHELL, individually and on behalf of a class of all
others similarly situated, HARVEY MITCHELL, individually
and on behalf of a class of all others similarly situated
Applicants,
V.

CITY OF NEW YORK, a municipal entity, NYC POLICE OFFICER
JAMES SCHUESSLER, SHIELD NO. 28718, POLICE OFFICER JOSEPH
BRINADZE, NYPD CAPTAIN JOSEPH GULOTTA, NYPD SERGEANT
DANIELLE ROVENTINI, NYPD LIEUTENANT KATHLEEN CAESAR,
RICHARD ROES 1-50, NEW YORK CITY POLICE SUPERVISORS
AND COMMANDERS, JOHN DOES and 1-50 NEW YORK CITY POLICE
OFFICERS, individually, and in their official capacities, jointly and severally,
Respondents.
__________
APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE SECOND CIRCUIT
__________
To the Honorable Ruth Bader Ginsburg, Associate Justice of the Supreme Court and Circuit
Justice for the Second Circuit:
1.

Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,

applicants Melinda Mitchell and Harvey Mitchell respectfully request a 60-day extension of
time, to and including September 6, 2019, within which to file a petition for a writ of certiorari to
review the decisions of the United States Court of Appeals for the Second Circuit in this
case. The Second Circuit issued its denial of Applicants’ Petition for Rehearing En Banc on
April 9, 2019. Unless extended, the time to file a petition for a writ of certiorari will expire on
July 8, 2019. The jurisdiction of this Court will be invoked under 28 U.S.C. § 1254(1).

1

2.

This case has been heard before the Second Circuit twice. A copy of the Second

Circuit’s denial of Applicants’ Petition for Rehearing En Banc dated April 9, 2019, the Second
Circuit’s Summary Order dated January 31, 2019, and the Second Circuit’s Opinion dated
October 28, 2016 (Mitchell II, which resolved the initial appeal in this matter, reported at 841
F.3d 72 (2d Cir. 2016)), are attached.
3.

This case presents the following primary questions: (1) whether the Second

Circuit erred in granting qualified immunity to the police defendants, especially where perjury by
by the arresting officers concerning the asserted basis for probable cause provides probative
evidence that the defendants knowingly violated the constitutional rights of the arrestees and / or
that they behaved with plain incompetence; and (2) whether the Second Circuit’s requirement
that civil rights plaintiffs must show subjective malice by police defendants in order to assert
Fourth Amendment post-arrest, pre-trial wrongful seizure claims is error.
4.

This case arises out of a mass arrest of approximately 40 people on January 9,

2011 at a party in a Brooklyn brownstone by defendant members of the New York City Police
Department (“NYPD”). In the first appeal, the Second Circuit reversed the district court’s grant
of summary judgment as to Applicants’ false arrest claims, and remanded for consideration of
the question of qualified immunity
5.

Following remand this Court decided District of Columbia v. Wesby, 138 S. Ct.

577 (2018), a case which also involved arrests made at a house party, in which this Court
determined that the arresting officers possessed probable cause for the arrests and were also
entitled to qualified immunity. Based upon Wesby, the District Court, and then the Second
Circuit, concluded that the Defendants were likewise entitled to qualified immunity in the case at
bar.

2

6.

The Second Circuit on the second appeal ignored critical factual distinctions

between this case and Wesby, including significant evidence in the record showing that the
Defendants knew there was not probable cause for the mass arrests. It is undisputed, for
example, that the Defendants never determined - at any point, up to the present day - that the
party was not in fact being held with permission of the owner or lawful tenant of the property. It
is also undisputed that the arrest decisionmaker, an NYPD Captain, ordered the arrest of
everyone present at the party because the partygoers did not provide him with the information he
demanded about who owned the property and who was running the party. Further, the evidence
in the record demonstrates beyond cavil that three of the arresting officers - who processed the
trespass arrest paperwork of fourteen of the arrestees - perjured themselves on so-called “trespass
affidavits” in an attempt to justify the otherwise-baseless arrests and the officers’ illegal entry
into the property.
7.

In its Opinion dated October 28, 2016 the initial panel highlighted a number of

facts that illustrated why probable cause was not present if the facts were to be viewed in the
light most favorable to Applicants (as they must be on the Defendants’ motion for summary
judgment), including the following:
- “that no member of the NYPD made serious efforts to verify the legal
status of the brownstone, i.e., the existence of a person or entity with a claim of
occupancy of ownership, the property’s status under the FTAP [the Brooklyn
District Attorney’s Office’s “Formal Trespass Affidavit Program”], or the lack of
any claim or other status.” Mitchell II, 841 F.3d at 77.
- “When Lieutenant Caesar first visited the property in December 2010,
she failed to investigate the ownership status of the brownstone and assumed it
was abandoned, even though there were signs of use. Based on the evidence in
the record, a trier of fact could find that, when Caesar re-entered the brownstone
in the early morning of the day of the arrests, she did so based solely on her
earlier conjectures that the brownstone was abandoned and that appellants were
therefore trespassing. A trier of fact could further find this belief was
3

unreasonable, given the for-sale sign in the front yard. Indeed, as Captain Gulotta
conceded, the existence of a real estate sign suggested that someone claimed
ownership of the brownstone.” Id. at 77-78.
- “After the arrests, Officer Girard Moscato, having seen the for-sale sign
outside the brownstone, tried to call Weichert Realty to inquire about the
brownstone, but, after leaving a voice message, he did not follow up. See Colon v.
City of N.Y., 60 N.Y.2d 78, 455 N.E.2d 1248, 1250, 468 N.Y.S.2d 453 (N.Y.
1983) (“[T]he failure to make a further inquiry when a reasonable person would
have done so may be evidence of lack of probable cause.”) (citation omitted).
Indeed, as Captain Gulotta conceded, the existence of a real estate sign suggested
that someone claimed ownership.” Id. at 78.
- “Other officers stated (inconsistently) that they believed the brownstone
to be part of the FTAP or to be abandoned. It is conceded that these beliefs were
mistaken. Moreover, on this record, the only basis, if any, for these beliefs
appears to be word of mouth among the officers.” Id. at 78.
8.

As to this last point, the record established that the defendant officers were not

simply mistaken about their belief regarding the participation of the brownstone in the FTAP.
Rather, the evidence establishes that they committed perjury, and the reasonable inference to be
drawn from the facts in the record is that they did so to attempt to cover up for a mass arrest that
they knew lacked probable cause. It is axiomatic that qualified immunity cannot be invoked if a
defendant official “knew or reasonably should have known” that his or her official actions
“would violate the constitutional rights of the [Plaintiff].” Harlow v. Fitzgerald, 457 U.S. 800,
815 (1982); see also, Malley v. Briggs, 475 U.S. 335, 341 (1986) (qualified immunity doctrine
does not protect the “plainly incompetent or those who knowingly violate the law”).
9.

For all the above reasons - none of which existed in Wesby - the initial panel

concluded that:
Appellees’ mass arrest for trespass, on this record, could easily be found to
have been based entirely on baseless and unreasonable conjectures and
assumptions as to the ownership of the property or its FTAP status.
Under these circumstances, viewing the record in the light most favorable
to appellants, a dispute of material fact exists as to whether the police
4

officers could have reasonably believed the appellants were trespassers.
There was no reasonable basis for the belief that the building was in the
FTAP, and the for-sale sign belied abandonment. The lack of any known
claimant asserting legal occupancy of the premises on this record may
eliminate any claim of unlawful entry by the police, but it provides no
corresponding individualized probable cause to arrest appellants for
trespass.
Mitchell II, 841 F.3d at 79 (emphasis added).
10.

Whereas the defendant officers in Wesby behaved competently and honestly in

determining that the partygoers were not permitted to be present in that property, and thus they
possessed probable cause for the arrests and were entitled to qualified immunity, the defendants
in the case at bar behaved dishonestly and at best incompetently by never determining that the
Applicants and other partygoers were not lawfully present in the property, and by perjuring
themselves on the “trespass affidavits” that provided false information concerning the legal
status of the property and its participation in the Formal Trespass Affidavit Program. Everything
about the circumstances of the party - based on the facts viewed in the light most favorable to the
Plaintiffs - suggested that the partygoers were, and reasonably believed that they were, attending
a legitimate party. Therefore, this case is not controlled by Wesby, and the Defendants should
not have been granted qualified immunity from liability for the false arrests of Applicants and
the other partygoers.
11.

Your Honor, concurring in the judgment in part in Wesby, questioned “whether

this Court, in assessing probable cause, should continue to ignore why police in fact acted.”
Wesby at 593. Your Honor also expressed your concern that the “Court’s jurisprudence ... sets
the balance too heavily in favor of police unaccountability to the detriment of Fourth
Amendment protection,” Id. at 594, and stated that you “would leave open, for reexamination in
a future case, whether a police officer’s reason for acting, in at least some circumstances, should

5

factor into the Fourth Amendment inquiry.” Id. In addition to the probable cause and qualified
immunity analyses that call for reversal herein under the Court’s existing jurisprudence, such a
reexamination would also be appropriate in the instant case, where the record evidence indicates
that the arrest decisionmaker arrested the partygoers to retaliate against them for not receiving
the information he was seeking concerning the identity of the owner or tenant of the property,
and where the evidence indicates that he and his subordinate officers knew full well that there
was not probable cause to believe the arrestees were trespassing in the property.
12.

Applicant thus will demonstrate that certiorari is warranted as to the first question.

If certiorari is not granted it is likely that the Second Circuit, and the district courts within the
Second Circuit, will conclude that Wesby should be applied to protect any officer who arrests a
partygoer who has not or cannot provide the officer with a complete explanation as to the
ownership of the party premises and the provenance of the party, which is contrary to basic
Fourth Amendment jurisprudence.
13.

Concerning the second question, whether malice need be shown to assert a Fourth

Amendment post-arrest, pre-trial wrongful seizure claim, there is a circuit split warranting
certiorari. This Court held in Manuel v. City of Joliet,137 S. Ct. 911 (2017) that such claims
should be analyzed under the Fourth Amendment, which utilizes an objective reasonableness
standard. Unlike the Second Circuit, the Fourth and Sixth Circuits, had - even prior to Manuel correctly held that a showing of subjective malice is not required for a federal “malicious
prosecution” claim. See Sykes v. Anderson, 625 F.3d 294, 309-10 (6th Cir. 2010); Brooks v. City
of Winston-Salem, 85 F.3d 178, 184 n.5 (4th Cir. 1996). The Third Circuit has also strongly
suggested that malice is not an appropriate component of a Fourth Amendment malicious
prosecution claim. See Gallo v. City of Philadelphia, 161 F.3d 217, 222 n.6 (3d Cir. 1998). The

6

Tenth Circuit has also noted a circuit split on the underlying issue of whether a cognizable §
1983 claim requires satisfaction of the elements of a common law tort, which issue lies at the
root of the Second Circuit’s requirement of a showing of malice for federal “malicious
prosecution” claims. See Pierce v. Gilchrist, 359 F.3d 1279 at 1290 & n.8 (10th Cir. 2004) (“We
thus join the Fourth, Fifth, Seventh, and Eleventh Circuits in rejecting the view that a plaintiff
does not state a claim actionable under § 1983 unless he satisfies the requirements of an
analogous common law tort” and citing Singer v. Fulton County Sheriff, 63 F.3d 110 (2d Cir.
1995), as among the “[o]ther circuits . . . [that] have taken the opposite view”). The First Circuit
has also joined the Tenth, Fourth, Fifth, Seventh, and Eleventh in holding - as this Court
instructed in Manuel - that common-law categories cannot simply be imported into a federal
malicious prosecution cause of action. See Hernandez-Cuevas v. Taylor, 723 F.3d 91, 100-01
(1st Cir. 2013). This Court in Manuel, however, did not address the specific question of whether
a requirement that subjective malice need be shown in order to assert a Fourth Amendment postarrest, pre-trial wrongful seizure claim is error.
14.

Although I have co-counsel, I will be the principal author of the petition for a writ

of certiorari, having argued both appeals below and been the principal author on the briefs below
in both the Second Circuit and the district court. I am also a solo practitioner, and have
responsibility for a number of other matters with proximate due dates, including cross-motions
for summary judgment in two involved cases pending in the Southern District of New York,
Fernandez, et al., v. City of N.Y., et al. 17 Civ. 789 (PGG) (opposition papers due on July 8,
2019; reply papers due on July 22, 2019), and Mercedes v. City of New York, et al., 17 Civ.
7368 (AKH) (moving papers due July 15, 2019; opposition papers due July 29, 2019; reply

7

papers due August 5, 2019). J will also be out of the country with my family for a vacation from
August 7-29, 2019. Accordingly, an extension of time is warranted.
15.

For the foregoing reasons, the application for a 60-day extension oftime, to and

including September 6, 2019, within which to file a petition for a writ of certiorari in this case
should be granted .

Dated :

June 26, 2019
New York, New York

@

/

::-

----

/~ROTHMAN

Counsel of Record
315 Broadway, Suite 200
New York, New York 10007
(212) 227-2980
Jonathan C. Moore
BELDOCK LEVINE & HOFFMAN
LLP
99 Park Avenue, Suite 1600
New York, NY 10016
(212) 490-0400
Joshua S. Moskovitz
BERNSTE IN C LA RKE & MOSKOVITZ
PLLC
11 Park Place, Suite 914
New York, New York 10007
Phone (212) 321-0087 Ext. 3

8

Case 18-588, Document 90, 04/09/2019, 2535800, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
9th day of April, two thousand nineteen.
________________________________________
Melinda Mitchell, individually and on behalf of a class of
all others similarly situated, Harvey Mitchell, individually
and on behalf of a class of all others similarly situated,
ORDER
Plaintiffs - Appellants,

Docket No: 18-588

v.
City of New York, a municipal entity, NYC Police
Officer James Schuessler, Shield No. 28718, Police
Officer Joseph Brinadze, NYPD Captain Joseph Gulotta,
NYPD Sergeant Danielle Roventini, NYPD Lieutenant
Kathleen Caesar, Richard Roes 1-50, New York City
Police Supervisors and Commanders, John Does, 1-50
New York City Police Officers, individually, and in their
official capacities, jointly and severally,
Defendants - Appellees.
_______________________________________
Appellants, Melinda Mitchell and Harvey Mitchell, filed a petition for panel rehearing, or,
in the alternative, for rehearing en banc. The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Case 18-588, Document 78-1, 01/31/2019, 2486160, Page1 of 4

18-588
Mitchell v. City of New York

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York on the
31st day of January, two thousand nineteen.
Present:

ROSEMARY S. POOLER,
REENA RAGGI,
DEBRA ANN LIVINGSTON,
Circuit Judges.
_____________________________________________________
MELINDA MITCHELL, individually and on behalf of a class
of all others similarly situated, HARVEY MITCHELL, individually
and on behalf of a class of all others similarly situated,
Plaintiffs-Appellants,
v.
CITY OF NEW YORK, a municipal entity, NYC POLICE
OFFICER JAMES SCHUESSLER, Shield No. 28718,
POLICE OFFICER JOSEPH BRINADZE, NYPD
CAPTAIN JOSEPH GULOTTA, NYPD SERGEANT
DANIELLE ROVENTINI, NYPD LIEUTENANT
KATHLEEN CAESAR, RICHARD ROES 1-50, NEW YORK
CITY POLICE SUPERVISORS AND COMMANDERS,
JOHN DOES, 1-50 NEW YORK CITY POLICE OFFICERS,
individually, and in their official capacities, jointly and severally,
Defendants-Appellees.
_____________________________________________________

No. 18-588

Case 18-588, Document 78-1, 01/31/2019, 2486160, Page2 of 4

Appearing for Appellants:

Jeffrey A. Rothman (Jonathan C. Moore, Beldock Levine &
Hoffman LLP, Joshua S. Moskovitz, Bernstein Clarke &
Moskovitz, on the brief), New York, N.Y.

Appearing for Appellees:

Melanie T. West, Assistant Corporation Counsel, (Richard
Dearing, Devin Slack, on the brief), for Zachary W. Carter,
Corporation Counsel of the City of New York, New York, N.Y.

Appeal from the United States District Court for the Southern District of New York (Kaplan, J.).
ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of said District Court be and it hereby is AFFIRMED.
Appellants Melinda Mitchell and Harvey Mitchell, putatively on behalf of themselves
and all others similarly situated (APlaintiffs@), appeal from the February 1, 2018 judgment of the
United States District Court for the Southern District of New York (Kaplan, J.) granting
summary judgment to defendant police officers (“City Defendants@) regarding claims of false
arrest because the officers were protected by qualified immunity. Mitchell v. City of New York,
2018 WL 671257 (S.D.N.Y. Jan. 31, 2018). We assume the parties’ familiarity with the
underlying facts, procedural history, and specification of issues for review.
The facts are drawn from our previous opinion in Mitchell v. City of New York, 841 F.3d
72 (2d Cir. 2016) (“Mitchell II”), where they are recited in more detail. Melinda and Harvey (we
refer to them by their first names as they are unrelated) were among those attending a house
party at a brownstone in Brooklyn that the police believed to be abandoned. After the police
arrived, officers asked the partygoers to identify who owned the house, or who was hosting the
party. When no one identified the owner or host, Deputy Inspector Joseph Gulotta ordered all
those present arrested.
Melinda and Harvey sued, bringing a putative class action alleging Section 1983 claims
for false arrest, malicious prosecution, abuse of process, and excessive force. After discovery, the
parties cross-moved for summary judgment. On February 11, 2013, the district court granted
appellees’ motion for summary judgment in its entirety. Mitchell v. City of New York, 14 WL
535046, at *6 (S.D.N.Y. Feb. 11, 2014) (“Mitchell I”). The Plaintiffs appealed, and this Court
affirmed on all grounds but one: “whether the appellee police officers had probable cause to
arrest appellants for trespass.” Mitchell II, 841 F.3d at 75. We remanded for the district court to
consider the false arrest claim and the appellee’s claim of qualified immunity as it related to the
false arrest. The City Defendants moved for summary judgment on qualified immunity grounds,
and the district court granted that motion. Plaintiffs timely appealed.
We affirm. After remand, the Supreme Court considered the case of District of Columbia
v. Wesby, 138 S. Ct. 577 (2018). Wesby is a party-house case: the question before the Court was
whether there was probable cause for District of Columbia police officers to arrest 16 partygoers
“who were arrested for holding a raucous, late-night party in a house they did not have
permission to enter.” Id. at 582. As here, the arrestees brought Section 1983 false arrest claims
against the District of Columbia and the arresting police officers. The Supreme Court concluded

2

Case 18-588, Document 78-1, 01/31/2019, 2486160, Page3 of 4

that based on the circumstances, the officers had probable cause to arrest the partygoers, and also
exercised its discretion to find that the officers were entitled to qualified immunity. Id. at 589.
Because the district court assumed the absence of probable cause for the arrests, the only
issue on appeal is the question of whether Wesby dictates that the officers here were entitled to
qualified immunity. Qualified immunity protects officials from damages liability if their conduct
“does not violate clearly established statutory or constitutional rights of which a reasonable
person would have known.” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (citations omitted).
“‘Clearly established’ means that, at the time of the officer’s conduct, the law was sufficiently
clear that every ‘reasonable official would understand that what he is doing’ is unlawful.” Wesby,
138 S. Ct. at (quoting Ashcroft v. al–Kidd, 563 U.S. 731, 741 (2011)). “That determination is
made not from the perspective of courts or lawyers, but from that of a reasonable officer in the
defendant’s position.” Ganek v. Leibowitz, 874 F.3d 73, 81 (2d Cir. 2017) (citations omitted).
After determining that a legal rule was clearly established, the next question is whether “the legal
principle clearly prohibit[s] the officer’s conduct in the particular circumstances before him.”
Wesby, 138 S. Ct. at 590. The “specificity” of the rule a plaintiff seeks to apply is “especially
important in the Fourth Amendment context,” id. (citation omitted), because “[p]robable cause
turns on the assessment of probabilities in particular factual contexts and cannot be reduced to a
neat set of legal rules.” Id. (citation and alterations omitted).
A police officer is entitled to qualified immunity in the context of a false arrest claim if
there was at least “arguable probable cause” at the time the officer arrested the plaintiff. See
Figueroa v. Mazza, 825 F.3d 89, 100 (2d Cir. 2016). In assessing arguable probable cause, the
inquiry is “whether any reasonable officer, out of the wide range of reasonable people who
enforce the laws in this country, could have determined that the challenged action was lawful.”
Id. (emphases in omitted).
Mitchell II found Plaintiffs raised a question of material fact as to the issue of probable
cause, and the district court assumed for the purposes of its analysis that probable cause did not
exist. But the question in determining whether the City Defendants are protected by qualified
immunity turns on the question of arguable probable cause—a lesser showing. The only truly
distinguishing fact between this case and Wesby is that in Wesby, the police officers made more
of an effort to determine if the house was truly abandoned. 138 S. Ct. at 583-84. That is not
enough of a difference to deny the City Defendants qualified immunity.
Wesby emphasized that qualified immunity is appropriate unless a court can “identify a
case where an officer acting under similar circumstances . . . was held to have violated the Fourth
Amendment.” Wesby, 138 S. Ct. at 590 (citation omitted). The case need not be directly on point,
“but the existing precedent must place the lawfulness of the particular arrest beyond debate.” Id.
(internal quotation marks omitted). Thus, there must be a “body of relevant case law [that]
clearly establish[es] the answer with respect to probable cause.” Id. Plaintiffs identify no such
case here.

3

Case 18-588, Document 78-1, 01/31/2019, 2486160, Page4 of 4

We have considered the remainder of Plaintiffs’ arguments and find them to be without
merit. Accordingly, the order of the district court hereby is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

4

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page1 of 16

14-0767-cv
Mitchell et al. v. The City of New York et al.

1

UNITED STATES COURT OF APPEALS

2

FOR THE SECOND CIRCUIT

3

August Term, 2014

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30

(Argued: February 20, 2015

Decided: October 28, 2016)

Docket No. 14-0767-cv
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - MELINDA MITCHELL, individually and on behalf of a class of all
others similarly situated, HARVEY MITCHELL, individually and on
behalf of a class of all others similarly situated,
Plaintiffs-Appellants,
v.
THE CITY OF NEW YORK, a municipal entity, NYC POLICE OFFICER
JAMES SCHUESSLER, Shield No. 28718, RICHARD ROES, 1-50 NEW YORK
CITY POLICE SUPERVISORS AND COMMANDERS, JOHN DOES, 1-50 NEW YORK
CITY POLICE OFFICERS, individually, and in their official
capacities, jointly and severally, POLICE OFFICER JOSEPH
BRINADZE, NYPD CAPTAIN JOSEPH GULOTTA, NYPD SERGEANT DANIELLE
ROVENTINI, and NYPD LIEUTENANT KATHLEEN CAESAR,
Defendants-Appellees.
- - - - - - - - - - - - - - - -- - - - - - - - - - - - - - - - B e f o r e:

WINTER, POOLER, and SACK, Circuit Judges.

Appeal from a judgment of the United States District Court

31

for the Southern District of New York (Lewis A. Kaplan, Judge),

32

granting appellees’ motion for summary judgment and dismissing

33

appellants’ claims.

34

material fact as to whether the New York City Police officers had

35

probable cause to arrest appellants for trespass.

36

court therefore improperly dismissed appellants’ false arrest

37

claim.

We hold that there is a genuine issue of

We affirm as to all other claims.
1

The district

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page2 of 16

1
2
3
4
5
6
7
8
9
10
11
12
13
14

JEFFREY A. ROTHMAN (Jonathan C. Moore &
Joshua S. Moskovitz, Beldock Levine &
Hoffman LLP, New York, NY, on the brief)
New York, NY, for Plaintiffs-Appellants.
DRAKE A. COLLEY, for Zachary W. Carter,
Corporation Counsel of the City of New
York, New York, NY, for DefendantsAppellees.
WINTER, Circuit Judge:
Melinda Mitchell and Harvey Mitchell -- we will refer to

15

them as Melinda and Harvey because they are not related -- along

16

with other similarly situated individuals, appeal from Judge

17

Kaplan’s dismissal of their complaint on a grant of summary

18

judgment to appellees.

19

of material fact as to whether the appellee police officers had

20

probable cause to arrest appellants for trespass.

21

vacate the judgment.

22

appellees’ claim of qualified immunity related to the false

23

arrest.

24

abuse of process, and municipal liability claims.

We hold that there is a genuine dispute

We therefore

We remand the false arrest claim and

We affirm the dismissal of the malicious prosecution,

25

BACKGROUND

26

This appeal is from a grant of summary judgment, and the

27

following recitation of facts, therefore, views the evidentiary

28

record in the light most favorable to appellants, the non-moving

29

party.

30

(citation omitted).

Rentas v. Ruffin, 816 F.3d 214, 220 (2d Cir. 2016)

2

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page3 of 16

1

In December 2010, Lieutenant Kathleen Caesar of the New York

2

City Police Department (“NYPD”) responded to a report of a sexual

3

assault at a brownstone located at 2142 Atlantic Avenue, in

4

Brooklyn, New York.

5

officer, she saw two women, one of whom said she was robbed in

6

the brownstone.

7

front door, Caesar entered the premises through the back door.

8

She found no one inside.

9

area next to the kitchen, a room with a dance pole, and a living

When Caesar arrived with another police

After no one responded to her knocks at the

On the first floor, she observed a bar

10

room with no furniture.

11

abandoned.

12

this and later made it a point to drive by the brownstone during

13

her patrol shifts since she believed the brownstone might have

14

been “being used for parties.”

15

Caesar concluded that the house was

She told her colleague Lieutenant John Hopkins of

J. App’x at 104.

About a month later, on January 9, 2011, Melinda and Harvey

16

attended a party at the 2142 Atlantic Avenue brownstone.

17

both were invited by acquaintances, neither knew who was hosting

18

the party or who owned the property.

19

they opened a small unlocked gate, and proceeded through the

20

front door.

21

building.

22

property.

23
24

While

To enter the brownstone,

There were no signs prohibiting entrance to the

There was, however, a realtor’s for-sale sign on the

At about 2:15 a.m. on January 9, 2011, Caesar was driving by
the brownstone when she saw three people standing on its stoop.

3

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page4 of 16

1

She called Hopkins to inform him that suspicious activity might

2

be taking place at the premises.

3

Gulotta, and other officers arrived, Caesar knocked at the front

4

door but no one answered.

5

locked.

6

the property and entered the brownstone through the back door.

7

Caesar then made her way through the brownstone, past “about 30

8

kids” to the front door to let in more officers.

9

After Hopkins, Captain Joseph

She tried to open the door, but it was

She and some of the officers proceeded to the rear of

Id. at 127-128.

Inside, the officers found at least 30 people.

According to

10

appellants, space was set up for a party, with a bar, a projector

11

screen, disco lights, running water, working heat, DJ equipment,

12

and an area with a big TV and some couches.

13

his deposition that he saw that electricity was being routed in

14

from outside the house via extension cords.

15

testified at his deposition that he smelled marijuana upon

16

entering the brownstone, and another officer, James Schuessler,

17

testified at his deposition that he recalled seeing six or eight

18

“nickel” or “dime” bags containing what looked to be marijuana

19

and crack cocaine on the floor of the brownstone.

20

Gulotta testified at

Gulotta also

Upon entering the brownstone, the police told everyone to be

21

quiet and then repeatedly asked who owned the property and who

22

was hosting the party.

23

know who the owner was.

24

Gulotta ordered the arrest of everyone present.

Some people replied that they did not
When no one revealed the owner or host,

4

The arrests were

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page5 of 16

1

based on Gulotta’s belief that everyone at the party had:

(i)

2

“trespass[ed]”; (ii) “loiter[ed] for the purpose of using

3

narcotics”; and (iii) “endanger[ed] the welfare of a child

4

because there was a 12 year-old child present.”

5

only issue raised in this appeal with regards to the arrests is

6

whether there was probable cause for the arrests for trespass.

Id. at 582.

The

7

Melinda and Harvey were arrested and both were handcuffed.

8

Melinda was handcuffed for approximately one hour by an officer

9

who refused to loosen the handcuffs when she complained they were

10

too tight.

11

required her to take Advil and use an ice pack for two days.

12

Harvey was handcuffed for 20 to 30 minutes; he alleged the

13

handcuffs left marks on his arms but required no medical

14

treatment.

15

The handcuffs caused bruising to her wrist that

All arrestees were processed at the precinct and their

16

fingerprints and mug shots taken.

17

“Desk Appearance Ticket” (“DAT”), which required her to appear in

18

court at a later date.

19

Central Booking facility and arraigned.

20

Melinda was released with a

Harvey was processed through the Brooklyn

After the arrests, several police officers each submitted

21

statements entitled, “Supporting Deposition – Trespass in a

22

Dwelling and Resisting Arrest,” to the Kings County District

23

Attorney’s Office.

24

understanding that the brownstone was categorized as a Formal

The statements attested to the officers’

5

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page6 of 16

1

Trespass Affidavit Program (“FTAP”) dwelling and that the NYPD

2

was the lawful custodian of the property.1

3

officers’ statement at the time of the arrest, it is now

4

undisputed that the brownstone was not part of FTAP.

5

does not illuminate whether the building was privately owned or

6

abandoned to City custody, although demonstrating City custody

7

would have helped the defense to show probable cause for the

8

trespass arrests.

9

Notwithstanding the

The record

The Kings County District Attorney’s Office later declined

10

to prosecute Melinda and others who received a DAT following the

11

arrests at the brownstone.

12

Harvey pursuant to an Adjournment in Contemplation of Dismissal.

13

On April 6, 2012, appellants filed their original complaint

It also dropped all charges against

14

in the present action, in which they assert Section 1983 claims

15

for false arrest, malicious prosecution, abuse of process, and

16

excessive force.

17

amended complaint asserting the same Section 1983 claims.

18
19

On November 5, 2012, appellants filed their

After discovery, both parties moved for summary judgment.
Appellees moved for summary judgment on all of appellants’
1

The FTAP was developed to allow tenants and landlords to complain of
drug-related activity occurring in the common areas of multi-dwelling
apartment buildings. Landlords participating in the FTAP are asked to sign an
affidavit authorizing the police to perform vertical patrols in their
buildings. The police are also given keys to common areas and a list of
tenant residents. See, e.g., Charles J. Hynes, Ask the DA: Preventing Illegal
Activity in Apartment-Building Hallways, Brooklyn Daily Eagle (Sept. 19,
2012), www.brooklyneagle.com/articles/ask-da-preventing-illegal-activityapartment-building-hallways-2012-09-19-090000; N.Y. Cty. Dist. Atty.’s Office,
Trespass Affidavit Program, http://manhattanda.org/trespass-affidavit-program
(last visited Oct. 26, 2016).

6

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page7 of 16

1

claims, whereas appellants moved for partial summary judgment

2

only on their federal and state law claims for false arrest and

3

their state law claims for battery.

4

under New York law became moot, however, when the New York

5

Appellate Division, Second Department, reversed the decision of

6

the Kings County Supreme Court that granted appellants leave to

7

file late notices of their claims.

8

N.Y.S.2d 368, 370 (2013).

9

court granted appellees’ motion for summary judgment in its

The battery claim arising

Mitchell v. City of N.Y., 977

On February 11, 2013, the district

10

entirety.

11

WL 535046, at *6 (S.D.N.Y. Feb. 11, 2014).

12

followed.

13
14

Mitchell v. City of N.Y., No. 12 CIV. 2674 LAK, 2014
This timely appeal

DISCUSSION
We review de novo a district court’s grant of summary

15

judgment, “construing the evidence in the light most favorable to

16

the non-moving party and drawing all reasonable inferences in its

17

favor.”

18

2011)(citation omitted). “[I]t is well-settled that [this court]

19

may affirm on any grounds for which there is a record sufficient

20

to permit conclusions of law, including grounds nor relied upon

21

by the district court.” Holcomb v. Lykens, 337 F.3d 217, 223 (2d

22

Cir. 2003) (internal quotation marks and citation omitted).

Costello v. City of Burlington, 632 F.3d 41, 45 (2d Cir.

23
24

7

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page8 of 16

1
2
3
4
5
6

a)

False Arrest
1) Probable Cause
We first address the district court’s holding that the

7

police had probable cause to arrest appellants.

See Mitchell,

8

2014 WL 535046, at *3-*4. “The existence of probable cause to

9

arrest constitutes justification and is a complete defense to an

10

action for false arrest” brought under Section 1983.

Jenkins v.

11

City of N.Y., 478 F.3d 76, 84 (2d Cir. 2007) (internal quotation

12

marks and citations omitted). “Probable cause . . . exists when

13

the [arresting] officers have knowledge or reasonably trustworthy

14

information of facts and circumstances that are sufficient to

15

warrant a person of reasonable caution in the belief that the

16

person to be arrested has committed or is committing a crime.”

17

Id. at 84-85 (internal quotation marks and citations omitted).

18

court deciding whether probable cause existed must “examine the

19

events leading up to the arrest, and then decide whether these

20

historical facts, viewed from the standpoint of an objectively

21

reasonable police officer, amount to probable cause.”

22

v. Pringle, 540 U.S. 366, 371 (2003) (internal quotation marks

23

omitted).

24

warrant, the defendant in a false arrest case bears the burden of

25

proving probable cause as an affirmative defense.”

26

Napolitano, 604 F.3d 732, 751 (2d Cir. 2010) (citation omitted).

A

Maryland

Where “an arrest is not made pursuant to a judicial

27
8

Dickerson v.

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page9 of 16

1

On this record, it appears that no member of the NYPD made

2

serious efforts to verify the legal status of the brownstone,

3

i.e., the existence of a person or entity with a claim of

4

occupancy of ownership, the property’s status under the FTAP, or

5

the lack of any claim or other status.

6

first visited the property in December 2010, she failed to

7

investigate the ownership status of the brownstone and assumed it

8

was abandoned, even though there were signs of use.

9

evidence in the record, a trier of fact could find that, when

When Lieutenant Caesar

Based on the

10

Caesar re-entered the brownstone in the early morning of the day

11

of the arrests, she did so based solely on her earlier

12

conjectures that the brownstone was abandoned and that appellants

13

were therefore trespassing.

14

this belief was unreasonable, given the for-sale sign in the

15

front yard.

16

of a real estate sign suggested that someone claimed ownership of

17

the brownstone.

18

A trier of fact could further find

Indeed, as Captain Gulotta conceded, the existence

Other officers stated (inconsistently) that they believed

19

the brownstone to be part of the FTAP or to be abandoned.

20

conceded that these beliefs were mistaken.

21

record, the only basis, if any, for these beliefs appears to be

22

word of mouth among the officers.

23
24

It is

Moreover, on this

Furthermore, in finding that the officers had probable cause
to believe the brownstone was abandoned and that those present

9

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page10 of 16

1

were trespassing, the district court also relied heavily on the

2

police officers’ observation once they were inside the brownstone

3

that there were extension cords running from the brownstone to

4

another property as well as the fact that when asked, no one

5

attending the party told the officers who owned the brownstone.

6

Mitchell, 2014 WL 535046, at *4.

7

of the appellants, as we must, we conclude to the contrary that

8

these facts are insufficient to establish on summary judgment as

9

a matter of law that the officers had probable cause to believe

10
11

Drawing all inferences in favor

that the house was abandoned.2
After the arrests, Officer Girard Moscato, having seen the

12

for-sale sign outside the brownstone, tried to call Weichert

13

Realty to inquire about the brownstone, but, after leaving a

14

voice message, he did not follow up.

15

455 N.E.2d 1248, 1250 (N.Y. 1983) (“[T]he failure to make a

16

further inquiry when a reasonable person would have done so may

17

be evidence of lack of probable cause.”) (citation omitted).

18

Indeed, as Captain Gulotta conceded, the existence of a real

19

estate sign suggested that someone claimed ownership.

See Colon v. City of N.Y.,

20

2

The use of extension cords might have been for one of many reasons
apart from the fact that the brownstone was abandoned and the attendees were
trespassing, such as to avoid blowing a fuse or tripping a circuit breaker on
the property, or because there was insufficient power available from the
brownstone’s electrical system without the addition of more from another
source. Similarly, the silence of those present does not necessarily
establish that the officers had a reasonable factual basis for thinking that
the brownstone was abandoned.

10

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page11 of 16

1

Under New York law, one commits the crime of trespass if one

2

“knowingly enters or remains unlawfully in or upon premises.”

3

N.Y. Penal Law § 140.05.

The law provides:

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

A person ‘enters or remains unlawfully’ in or
upon premises when he is not licensed or
privileged to do so. A person who, regardless
of his intent, enters or remains in or upon
premises which are at the time open to the
public does so with license and privilege
unless he defies a lawful order not to enter
or remain, personally communicated to him by
the owner of such premises or other authorized
person. A license or privilege to enter or
remain in a building which is only partly open
to the public is not a license or privilege to
enter or remain in that part of the building
which is not open to the public.
Id. § 140.00(5).

20

the state’s burden to prove that an invitee does not have

21

privilege or license to remain on the premises.

22

element of the crime, officers must have probable cause to

23

believe that a person does not have permission to be where she is

24

before they arrest her for trespass.”

25

F. Supp. 2d 405, 426 (S.D.N.Y. 2012) (discussing New York v.

26

Brown, 254 N.E.2d 755, 756-57 (N.Y. 1969)).

27

arrest for trespass, on this record, could easily be found to

28

have been based entirely on baseless and unreasonable conjectures

29

and assumptions as to the ownership of the property or its FTAP

30

status.

The New York Court of Appeals has held “it is

Because it is an

Davis v. City of N.Y., 902

Appellees’ mass

31

Under these circumstances, viewing the record in the light

32

most favorable to appellants, a dispute of material fact exists
11

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page12 of 16

1

as to whether the police officers could have reasonably believed

2

the appellants were trespassers.

3

for the belief that the building was in the FTAP, and the for-

4

sale sign belied abandonment.

5

asserting legal occupancy of the premises on this record may

6

eliminate any claim of unlawful entry by the police, but it

7

provides no corresponding individualized probable cause to arrest

8

appellants for trespass.

9
10

There was no reasonable basis

The lack of any known claimant

Accordingly, we vacate the dismissal of appellants’ false
arrest claims.

11

2) Qualified Immunity

12

We leave open for decision in the first instance by the

13

district court on remand the question of whether the appellees

14

are entitled to qualified immunity with respect to the false

15

arrest claim. See Tellier v. Fields, 280 F.3d 69, 84 (2d Cir.

16

2000)(“Because qualified immunity is an affirmative defense,...

17

the defendants bear the burden of showing that the challenged act

18

was objectively reasonable in light of the law existing at the

19

time.”).

20

c)

21

Malicious Prosecution
We next address the district court’s dismissal of appellant

22

Melinda’s federal and state malicious prosecution claims.

23

Mitchell, 2014 WL 535046, at *5. In order to prevail on such a

24

claim under both Section 1983 and New York State law, a plaintiff

12

See

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page13 of 16

1

is required to demonstrate:

(i) the commencement or continuation

2

of a criminal proceeding against her; (ii) the termination of the

3

proceeding in her favor; (iii) “that there was no probable cause

4

for the proceeding”; and (iv) “that the proceeding was instituted

5

with malice.”

6

2003) (citations omitted); see also Colon, 60 N.Y.2d at 82

7

(similar). When raising a malicious prosecution claim under

8

Section 1983, a plaintiff must also show a “seizure or other

9

perversion of proper legal procedures implicating the claimant’s

Kinzer v. Jackson, 316 F.3d 139, 143 (2d Cir.

10

personal liberty and privacy interests under the Fourth

11

Amendment.”

12

(2d Cir. 2004) (internal quotation marks and citation omitted).

13

Washington v. Cty. of Rockland, 373 F.3d 310, 316

We first address Melinda’s state law and federal law claims

14

under the Kinzer test.

We have held that, under New York law,

15

the issuance of a DAT constitutes a criminal proceeding

16

initiation.

17

199 (2d Cir. 2014) (“[W]e adhere to the position we took in

18

Rosario that, under New York law, the issuance of a DAT

19

sufficiently initiates a criminal prosecution to sustain a claim

20

of malicious prosecution.”); Rosario v. Amalgamated Ladies'

21

Garment Cutters' Union, Local 10, 605 F.2d 1228, 1250 (2d Cir.

22

1979) (“[W]e believe that if a New York court faced the question

23

before us it would rule that the issuance of [a DAT] commences a

24

prosecution for purposes of determining whether an action for

See Stampf v. Long Island R.R. Co., 761 F.3d 192,

13

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page14 of 16

1

malicious prosecution lies.”).

Accordingly, we find that Melinda

2

has met the first Kinzer prong.

3

two and three by showing, respectively, that the proceeding

4

terminated in her favor when the District Attorney’s Office

5

declined to prosecute her, and, as discussed supra, that there

6

was no probable cause for her arrest.

7

however, is at the fourth prong, because she has not alleged or

8

proffered any facts that the DAT was issued with malice.

9

her malicious prosecutions, therefore, fail.

She has also satisfied prongs

Where her claim fails,

Both of

10

As Melinda fails to state a malicious prosecution claim

11

under the Kinzer test, we need not reach the question of whether

12

her single court appearance constituted a seizure under the

13

Fourth Amendment for purposes of her Section 1983 malicious

14

prosecution claim, and we leave the question for another day.

15

We therefore hold the district court properly dismissed

16

Melinda’s state and federal malicious prosecution claims.

17

d)

Abuse of Process

18

We now turn to appellants’ abuse-of-process claim.

19

successfully state such a claim, “it is not sufficient for a

20

plaintiff to allege that the defendants were seeking to retaliate

21

against him by pursuing his arrest and prosecution.

22

must claim that they aimed to achieve a collateral purpose beyond

23

or in addition to his criminal prosecution.” Savino v. City of

24

N.Y., 331 F.3d 63, 77 (2d Cir. 2003).

14

To

Instead, he

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page15 of 16

1

Whether or not the police officers may have sought to

2

retaliate against appellants by arresting them, appellants have

3

proffered no evidence that the police officers attempted to

4

achieve any other collateral purpose beyond arresting appellants

5

for trespass.

6

that the district court correctly dismissed appellants’ abuse-of-

7

process claim.

8

e)

9

We hold, therefore, albeit for different reasons,

Municipal Liability
We turn finally to the district court’s dismissal of

10

appellants’ municipal liability claim. See Mitchell, 2014 WL

11

535046, at *6. To prevail, a plaintiff must identify the

12

existence of a municipal policy or practice that caused the

13

alleged constitutional violation.

14

Servs. of City of N.Y., 436 U.S. 658, 694-95 (1978).

15

must also demonstrate a sufficient causal relationship between

16

the violation and the municipal policy or practice.

17

See Monell v. Dep’t of Soc.
A plaintiff

Id.

As discussed supra, while appellants have sufficiently

18

supported their claim that their arrests lacked individual

19

probable cause, they have not supported their claim of municipal

20

liability.

21

the arrests occurred pursuant to a city policy or practice. See

22

City of Okla. City v. Tuttle, 471 U.S. 808, 823-24

23

(1985)(plurality) (“Proof of a single incident of

24

unconstitutional activity is not sufficient to impose liability

Appellants have proffered no evidence to show that

15

Case 14-767, Document 81-1, 10/28/2016, 1894520, Page16 of 16

1

under Monell, unless proof of the incident includes proof that it

2

was caused by an existing, unconstitutional municipal policy[]

3

[that] can be attributed to a municipal policymaker.”)

4

(plurality); accord Fenner v. City of N.Y., No. 08 Civ.

5

2355(BMC)(LB), 2009 WL 5066810, at *4 (E.D.N.Y. Dec. 21, 2009)

6

(“At most, plaintiff has identified a single incident of a

7

constitutional violation.

8

occurred . . . the Supreme Court has squarely held that this is

9

insufficient to create liability under Monell.”) (citation

Even assuming such a violation

10

omitted), aff’d, 392 F. App’x 892, 894 (2d Cir. 2010) (summary

11

order).

12

appellants’ Monell claim.

13
14

Therefore, the district court correctly dismissed

CONCLUSION
For the reasons stated, we vacate and remand the lower

15

court’s summary judgment rulings as to the false arrest claims

16

and the question of qualified immunity.

17

court’s remaining summary judgment rulings.

16

We affirm the district

